Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




     TRENDS IN FOSTER CARE 





                 Richard P. Kusserow
                INSPECTOR   GENERAL

                     OEI-01-90-00490
              EXECUTIVE                         SUMMARY

PURPOSE

In this study we indicate recent trends concerning the number of children in foster
care caseloads, their age, and their placement status (group homes or foster family
homes).

BACKGROUND

On a nationwide basis, there is little timely and reliable information available on
children in foster care. This situation exists despite more than a decade of Federal
deliberations concerning the establishment and operation of a foster care and
adoption data collection system.

In the informational void, national policymakers find that many vital questions cannot
be answered with much certainty. One such set of questions involves the number and
age of foster care children being placed in group care facilities as opposed to
individual foster family homes.

To help answer such questions, we conducted a telephone and follow-up mail survey
of State child welfare officials in the 50 States and the District of Columbia. In
addition, we (1) conducted on-site interviews with public and private sector officials
involved with the delivery of child welfare services in the nation’s two most heavily
populated States, California and New York, and (2) reviewed much literature and
many documents concerning foster care.

FINDINGS

l&e Number of Children in Foster Care Has Been Increasing

After years of apparently little or no growth, the national foster care caseload
increased substantially in the last half of the 1980’s. From 1985 to 1989, for 38
reporting States, the caseload rose by 33 percent, from 228,155 to 304,431.

b	     Eighty-six percent of the growth occurred in only 11 States. California and
       New York together accounted for 65 percent of the growth.

b	     In both California and New York, a rise in caseload admissions in relation to
       discharges has propelled the growth.




                                            I
lk   hmndon    of Ihdtook      and Infan& in Fader Care Has Been Inching.

From 1985 to 1989, for 15 reporting States, the proportion of infants and preschoolers
in the foster care caseload increased from 22 percent to 31 percent. During the same
period, the proportion of 15- to 18-year-olds declined from 32 percent to 22 percent.

b	     In California and New York, these trends were slightly more pronounced. The
       proportion of infants and preschoolers rose from 22 percent to 34 percent as
       the proportion of 15- to 18-year-olds declined from 31 percent to 18 percent.




From 1985 to 1989, for 33 reporting States, the number of foster children in group
homes increased by 16 percent, from 44,226 to 51,189. California and New York
accounted for 57 percent of this growth.

During the same period, however, the proportion of foster children in group care in
these 33 States declined slightly but steadily from 21 percent to 18 percent.

During the last half of the 1980’s, infants and preschoolers accounted for a small but
increasing proportion of group home caseloads. From 1985 to 1989, for 11 reporting
States, the proportion increased from 2.7 percent to 5.4 percent, in contrast to the
proportion of 15- to 18-year-olds, which decreased from 58 percent to 53 percent.

b	     For California and New York, the data we obtained are not exactly
       comparable. It is apparent, however, that in those States during the 1985-1989
       period, the small proportion of very young children in the group home caseload
       increased at an especially sharp rate.

RECOMMENDATION

The Administration for Children and Families (ACF) should specify its plans for the
preparation and regular distribution of policy-relevant tables and for special analyses
concerning the data in the proposed foster care and adoption data collection system.
It should indicate these plans in the preamble to the regulations to be issued
concerning the system.

CoMMEm

We received comments on the draft report from the ACF and the Assistant Secretary
for Planning and Evaluation (ASPE). Both ACF (in oral comments) and ASPE (in
written comments) expressed concern about our draft report recommendation calling
for immediate implementation of essential aspects of the foster care and adoption
data collection system. Because of our understanding that ACF has removed



                                           ii
duplicative and unnecessary data elements included in its earlier proposal, we have
dropped that recommendation.

On our only remaining recommendation, which calls for ACF to specify its plans for
the preparation and regular distribution of policy relevant tables and for special
analyses concerning the data collection system, ACF agreed to take the
recommendations “under advisement” and respond “to the extent possible.”




                                          ...
                                          111
                 TABLE               OF       CONTENTS 





APPENDIX c

  Tables Derived From OIG Survey
  of Child Welfare Agencies s ea+- - - - - - as - - - - s s - q

APPENDIX D

  Detailed Comments on the Draft Report
  and OIG Response to the Comments - - - - - - - - - - m-
                               INTRODUCTION
     For many governmental programs, national information on the number, age, and,
     where applicable, placement status of clients can be regarded as a given. For the
     Federal-State foster care program, that is not the case. On a nationwide basis, there
     is little information available on the foster care caseload, a fact that seriously limits
     policymakers’ understanding of the program’s effectiveness.

     PURPOSE

     The purpose of our study is to provide information on the foster care caseload that
     will help policymakers assessthe program. Toward that end, this report focuses on
     three basic questions: How many children are in foster care? How old are they? In
     what kind of settings are they being placed?’

     In addressing these questions, we emphasize the changes that have occurred during
     the last half of the 1980’s. To the limited extent our information allows, we also
     address the factors that appear to be responsible for these changes.

     METHODOLOGY

     Our methodology (see appendix B) is based on three major data-gathering
     approaches: (1) a telephone and follow-up mail survey with State child welfare
     officials in the 50 States and the District of Columbia, (2) on-site interviews with
     public and private sector officials involved with the delivery of child welfare services in
*	   California and New York, and (3) a review of literature and documents concerning
     child welfare services in general and foster care in particular.

     Most of the trend data set forth is based on our State survey. In collecting, analyzing,
     and presenting these data, we faced a number of methodological problems associated
     with the varied and often incomplete nature of the State data systems. In appendix B,
     we indicate how we addressed these problems.

     Throughout the report, we regard the universe of foster care children to include all
     children who are placed away from their parents or guardians and are the
     responsibility of the State child welfare agencies, whether or not they have been
     placed by private service agencies. These children may be placed in foster family
     homes or group homes. We define the former to include homes where foster parents
     care for foster children and receive payments for board and care and other necessary
     living expenses associated with these children. We define group homes as facilities
     that are operated by a group or organization and are managed on a 24-hour basis by
     caregivers who are paid staff.




                                                  1

THE PROGRAMMA          TIC CONTEXT

In 1980, Congress passed the Adoption Assistance and Child Welfare Amendments
Act (P.L. 96-272). The law called for considerable reform in the nation’s foster care
system. It sought to (1) decrease the need for out-of-home placement of children by
making services available to children at risk and (2) reduce the length of stay in foster
care by offering more extensive case management and “permanency planning.”

The centerpiece of the legislation was a new Title IV-E of the Social Security Act.2
This title mandated procedural standards, case planning and review activities, and
record-keeping requirements for a system that has been the nearly exclusive purview
of State governments. Moreover, it authorized open-ended Federal funding to the
States for certain administrative and training activities and for foster care maintenance
payments for children, from birth to 18 years of age, who meet eligibility criteria based
in part on the child’s eligibility under the Aid to Families with Dependent Children
(AFDC) program. In addition, it authorized adoption assistance payments for “special
needs” children , children who originate from families eligible for AFDC who are
physically or emotionally disabled, adolescents, or members of a sibling or ethnic
minority group.

During the 1980’s, Federal expenditures for Title IV-E rose substantially. From fiscal
year 1981 to fiscal year 1988, the Federal share of administrative and training costs
climbed from $30.4 million to $352.5 million and the Federal share of foster care
maintenance costs increased from $278.4 million to $520.7 million. The estimated
expenditures for fiscal year 1991 suggest even greater increases, to $949.2 million for
Federal administrative and training costs and $927.4 million for Federal foster care
maintenance costs.3

In recent years, as the costs of the foster care program have mounted, many policy
officials at Federal and State levels have expressed concern about the adequacy of the
care being provided to some of the children. Of particular note has been concern
about a perceived growth in the group home population. This seems to have been
exacerbated by press accounts of the emergence of some large orphanage-type
facilities where, because of shortages of foster families and caseworkers, children are
said to be “warehoused.”

Such practices, to the extent they exist, seem to conflict with the social work principle
of making foster care placement choices on the basis of the individual needs of each
child and raise questions about the adequacy of services being extended to foster
children. Yet because there is little current, reliable data on the foster care caseload
for all the States, any analysis of this kind is seriously constrained.




                                            2

THE DATA      COLTECI-‘ION     SYSTEM     CONTEXT

Congress first addressed the need for a national data collection system more than a 

decade ago.4 In 1978, in the Child Abuse Prevention and Treatment and Adoption 

Reform Act, it called for the Department of Health and Human Services (HHS) to 

provide for the establishment and operation of a national foster care and adoption 

data collection system. And then, in 1980, in the Adoption Assistance and Child 

Welfare Act, it authorized HHS to call on the States to submit statistical reports 

addressing the legal status, demographic characteristics, location, and length of stay of 

children in foster care. 


In 1982, in response to these congressional enactments, the Department began funding 

the American Public Welfare Association to establish and run the Voluntary 

Cooperative Information System. That system, which continues to operate, collects 

information from State child welfare agencies on foster care children and special needs 

children who are adopted. But the system, which is based on the voluntary 

participation of the States, is of relatively little value to researchers or policymakers. 

It is in many respects incomplete; it lacks common definitions for data elements; and it 

reflects inconsistent reporting periods and methodologies. 


In 1986, Congress once again called for the establishment of a foster care and 

adoption data collection system. Toward that end, it mandated that HHS (1) form an 

advisory committee to determine the kind of system that should be set up, (2) submit 

to Congress a plan, based on the advisory committee’s report, for establishing and 

running the system, and (3) promulgate the necessary regulations. 


Each of these steps has been carried out. In October 1987, the advisory committee 

submitted its report to Congress and HHS. In May 1989, HHS presented its plan to 

Congress; and, in September 1990, it issued a proposed notice of rulemaking for the 

data collection system, which Congress expects to be fully implemented by October 

1991. 


The system proposed by HHS is a comprehensive one, calling for States to submit 

data electronically on a quarterly basis. It allows for Federal reimbursement, at a 50 

percent matching rate, for a portion of the State costs of the system. On the basis of 

the advisory group’s inquiry in 1987, it estimates that State and local costs will be $40 

million over 3 years for the purchase of hardware and software and $6 million yearly 

for administration. Annual Federal costs for administering the system, it estimates, 

will be $1 million. 





                                             3

                                                              FINDINGS 


JWMBER OF CHILDREN                                       IN CASELOAD

Afret years of ap~rently little or no growth, the nationa! fartercarecask    iracmzd
substantiaLly in the last half of the 1980’s. Rvm I985 to 1989, for 38 rqpdng States, the
casebad me by 33Fm             fiurn 22&155 to 304,431.

Although definitive assessmentsare not possible, it appears that in the early 1980’s
there was little if any growth in the national foster care population. In fact, it is
possible that at mid-decade that population was somewhat less than in the late 1970’s?



                                                                  FIGURE    1
                                TOTAL FOSTER CARE CASELOAD 1985-1989
                                              38 STATES
                   Thousands




                                                  I                   I                        1
               1oe85                            1986                1987                     1988   1989

                   -        98 Reporting             States           --e   “Top Eleven”
                   *        CA and NY                                 -     Other   Stater


     SOURC8:     State  Child   Tellare   A#cnclcr
     .‘ reported     to OIC




It is clear, however, that in the last half of the 1980’s the national foster care caseload
increased significantly. In our national sample, 38 States provided data on the size of
their caseload for 1985 and each of the subsequent 4 years.6 Together, they showed a
prominent increase, beginning in 1986 and intensifying between 1988 and 1989
(figure 1).


                                                                     4

b	       Eighty-six percent of the growth occurred in only 11 States. California and
         New York together accounted for 65 percent of the growth.

When one analyzes the 38-State data, it is readily apparent that the growth is
concentrated in 11 States, especially California and New York (figure 1). These two
States, together with Illinois, Ohio, Pennsylvania, Michigan, Massachusetts, Florida,
New Jersey, Washington, and Georgia constitute the ‘Top Eleven.”

b	       In both California and New York, a rise in caseload admissions in relation to
         discharges has propelled the growth.

Caseload size is a function of changes occurring in admissions, on the one hand, and
discharges, on the other. Thus, for instance, a caseload can increase with no increase
in admissions as long as discharges decrease. Conversely, a caseload can decrease
with no decrease in admissions as long as discharges increase.



                                                                          FIGURE 2
     FOSTER                  CARE CASELOAD                             ADMISSIONS  AND DISCHARGES                                           1985-1989
                                           New York                                                                   California

          Thouundr                                                                       Thouund,
       a0 .                                                                       40



       26 -



       *o-           .


             -
       16 -



       10 -

                                                                                      10 -              _ _^_,        .._     _ ..__..___         ..___ .   .

        6-



                                                                                      0
        PO66                 1066             1667              1666      1666        1666              1866                1907             1988           (818

                                              Year                                                                          Year

                         -     Adml*donr           +     Dlrchw6.a                                  -     Admlulonr            +      Dkchrrg6r



     COUICEI     C1~1~ Child        *.I,.,*   A,.“.,.,
     . . 1*,01w4    t. 010




To assesssuch caseload dynamics, we asked each State for data on admissions and
discharges for each of the 5 years studied. Only 6 of the Top Eleven and 15 other
States were able to provide us with that data. California and New York were among



                                                                                 5

those providing the data, and in both States it emerges that admissions was the
propelling force behind the caseload growth, albeit with somewhat different patterns
(figure 2). In California, the growth in admissions was accompanied each year by an
increase in discharges. In New York, both admissions and discharges decreased from
1985 to 1986. Then admissions rose each subsequent year, while discharges first
declined from 1986 to 1988 and then increased between 1988 and 1989. The
substantial growth in admissions was primarily attributable to kinship or “approved
relative home placements” called for by a New York State court ruling.’

hving the late 1980’S, the growth in the fbster care cad&d  outpaced the ovudl
hcreuse in thenumberof childrenin thegenemlpopuhio~hm 1985to 1989,             for38
reporting Stateq the number of placements per I,NM children aged I8 and uder me by
31 pemaq from 3.85 to 5.04.


                                                                                                                                     FIGURE 3
                                                  TOTAL FOSTER CARE PLACEMENT 1985-1989
                                                         PER 1000 CHILDREN (~=38)
                  Placement                       per        1000    chlldrcn           WC O-16
       10,                                                                                                                                                                                                     I

        8         _       _-   _.._   -    __._   _   --      ---_      ---            -.   -..-   .   -   .       -......                _          ._   _       ___..         --




                                                                                                                                                                                                               ‘
        6         -._._        --                                                                          . .._             ._.__    _       -   __._        -     .._   -._




             46


        4                                                                                                                                                                 _.-._




        2 -..-.-                             ..____
                                                 -- .._ ..__ -.-. ___-..--                                         __..._
                                                                                                                       -_ _..... -.                                ---_

                                                                            I                                                                   I                                                       I

        Pees                                                              1986                                                                1987                                                    1988   1989 



              --                          98 Reporting                        States                                                              +                                  CA and NY
              -                           “Top             Eleven”                                                                                -                                  Other   statea




The growth in the foster care population, as the above data indicate, is not just a
reflection of the increased number of children in the general population. For each of
the last 5 years of the decade, it also reflects an increased proportion of children in
the United States who are in a foster care status (figure 3). Indeed, by the end of the
1980’s a higher proportion of children were in foster care than at anytime in at least
the last three decades.’



                                                                                                                                                  6

 b	       The increase in the 1985 to 1989 period was especial@pronounced in
          California and New York In those States together, the number of placements
          per 1,OCKI children aged 18 and under jumped by 62 percent, from 5.74 to 9.32.

The jump was greatest in New York, where the rate rose from 5.60 to 10.08; in
California the increase was from 5.83 to 8.88. Among the other Top Eleven States, 7
also had increases, though typically less pronounced. Two actually had small
decreases. In Massachusetts, the placement rate per 1,000 children declined from 6.83
in 1985 to 6.59 in 1989; in New Jersey, from 4.51 to 4.29.

AGE OF CHILDREN

From 1985 to 1989, for I5 reprthg Stutces,the ptvptdon     of infants and preschookrs                              in
the fmter care caseload increawd jbn 22 pemmt to 3I ptmmt          bring that same
w       the proportion of I5- to I8-year-ok.& declhed from 32 percent to 22 percent.

b	        In California and New York, these trends were slighUy more pronounced. The
          proportion of infants and preschoolers rose from 22 percent to 34 percent as
          the proportion of 15- to l&year+Ms declined from 31 percent to 18 percent.



                                                                    FIGURE 4
             AGE DISTRIBUTION OF FOSTERCARE CASELOAD
                       1985-1989 (15 STATES)
                 Percent        of Total       Caseload
            35 ,




                           1985                         1986               1987        1988                 1989


                 m        Infants          < 1 year            m   1-4 years       I          5-9   yearr
                          IO-14      years                     m   15-18   pearr



      SOURCE:     State Child    Welfare     A~cnclca
      .a reported     Lo OK




                                                                            7

As the overall number of foster care children has increased, the age distribution has
changed significantly. During the last 5 years of the decade, the oldest group’s share
of the caseload eroded substantially as the two youngest segments’ share--infants (less
than 1 year old) and preschoolers (1 to 4 years old)--gained substantially (figure 4).
This was particularly true in California and New York (figure 5), but the same general
trend was found in all 15 reporting States.

                                                      FIGURE 5
         AGE DISTRIBUTION OF FOSTER CARE CASELOAD
            CALIFORNIA AND NEW YORK 19854989
             Percent    of Total    Cueload
        35




                       1985                    1986     1987     1988                 1989


             I         Infants      < 1 year                     0      5-9   yeara
             E2Z       IO-14       years




What is especially striking is the emergence of a foster care baby boom, especially,
once again, in California and New York. Among the 15 States, the number of infants
placed in foster care per 1,000 children aged 18 and under rose sharply, from 2.57 to
6.05; in California and New York, the number rose even more sharply, from 3.38 to
9.67 (appendix C). In New York City, between 1984 and 1988, the rate at which
infants were placed in foster care almost tripled from 8.7 per 1,000 live births to 25.3.
Thus, in 1988, about 2.5 percent of all children born in New York City were placed in
foster care within a year of birth.g

PLACEMENT              STATUS OF CH-ILDREN

From I985 to 1989, for 33 reporting States, the number of foster children in group homes
increased by I6 percent, from 44,226 to 51,189. California and New Yank accounted for
57pement of thk growth.



                                                         8

                                                                                    FIGURE 6
                     TOTAL GROUPHOME CASELOAD1985-1989
                                 33 STATES
                 Thousands
          60

          50            .__
                         _._        ._.. _ . ._._...._.._......... . . _....__..._                        -.._......_...
                                                                                                                  -.                 __ __ -._-..
                                                                                                                                                                             t
          *o     t   _......- . .                           ..-.   . - .._._-.-..   . _....____...___
                                                                                                    -_.                                     __._.__. .-...__..__   -   __._...
                                                                                                                                                                             i
                                                                                                                                                                               L

          30-                                                                                                       ..__.._..
                                                                                                                          -__-..           .--_.__
                                                                                                                                                -_.-.-- ..-_-.-......^.
                                                                                                                                                                     -

          20 -..........._....
                   -                                        .        ._-.__...- - - _..-.... -.-.....                                                                        J,
                                                                                                                                                                             II
             I
          10 _ .._.......                                                                    -_--                                      -_-.___-.-

                                                    I                                          1                                      I
               1oss5                              1986                                       1987                                   1988                                 1989


                 -            33 Reporting         Slates                                         -            “Top Eleven”
                 --);         CA and NY                                                           *            Other       States


    SOURCE:     State   Child       Kelferc   A#encies
    ., reported     to OIC




From 1985 to 1987, for 33 reporting States, the number of foster care children in
group homes remained about the same (figure 6). During the next 2 years, however,
the group home caseload rose substantially, with close to 60 percent of the growth
occurring in California and New York. In view of the growth taking place in the total
foster care caseload, these increases would not appear to be surprising.

Firm I985 to 1989, fat 33 repolrting Safer, the pvpntiim                                                                            of fixter children in pup                      care
declined~but~fionr2I~toI8~a

This finding is perhaps more surprising, given the perceptions we noted at the outset
of this report about the growing number of children in group facilities. Between 1985
and 1989, the group home population still increased at a rate greater than the increase
in the 18-year-old-and-under population (appendix C). It declined modestly as a
proportion of the total caseload, however, as the number of family foster home
placements rose significantly. Overall, for the 33 reporting States, the number of
foster children in group homes rose from 207,810 to 280,187.




                                                                                                    9

I   .

        b	     For California and New York, the data we obtained are not exactly
               comparable. It is apparent, however, that in those States during the 198549
               period, the small proportion of very young children in the group home caseload
               increased at an especially sharp rate.

        In 1989, as in 1985, the 15- to 18-year-olds dominated the group home caseloads.
        Some shifting of the distribution occurred, however, with the oldest group’s share
        declining and the youngest two groups’ share increasing.

        Among the 11 reporting States, which do not include New York, the increase is
        concentrated in California, where between 1985 and 1989, the number of infants in
        group care increased from 74 to 243 and preschoolers from 241 to 820. In contrast, 2
        of the States began and ended the period with no infants and preschoolers in group
        care, 4 experienced a modest increase, and 4 had a decline (in 2 casesa substantial
        decline).

        In New York, a compilation by the State Department of Social Services indicates that
        the proportionate increase has been greatest there. In 1985, 4.1 percent of children in
        group care were 5 years old or younger and 2.1 percent were under 1 year old; by
        1988, the corresponding numbers increased to 19.6 percent and 8.0 percent.”

        In explaining such increases, policy officials in California and New York told us that
        because they had not expected the baby boom in foster care, they did not have
        enough foster family homes for infants to meet the accelerated demand.
        Exacerbating the problem, they added, was that a number of the infants admitted to
        foster care during this period had special health problems associated with human
        immunodeficiency virus (HIV) infection or fetal exposure to drugs. Recruitment and
        support of families to care for such children often require extraordinary efforts.

        It is a generally accepted principle that the most therapeutically desirable placement
        for infants is with families rather than in group facilities. In attempting to adhere to
        this principle, California and New York officials have intensified their recruitment and
        family support efforts. Although it is too soon to know for sure, there are signs that
        these efforts may be having some success. In New York, State officials reported that
        they have developed a waiting list of families willing to care for infants with HIV
        infection, and incomplete data for 1989 indicate some reduction in the proportion of
        infants in group care.” Similarly, Los Angeles County officials reported significant
        recent reductions in the number of infants placed in their county-run receiving center.




                                                   10 

!   .


                              RECOMMENDATION

         Among the trends identified in the preceding pages, three that stand out are the
         recent increases that have occurred in: (1) the total number of children in foster care
         in the United States, (2) the number and proportion of them who are infants and
         preschoolers, and (3) the number and proportion of these infants and preschoolers
         who have been placed in group homes.

         What accounts for these trends? To what degree and how might they be attributable
         to:

         .	     intensified social roblems, such as poverty, homelessness,family instability, and
                substance abuse;’P

         .      increased reporting of child abuse cases;13

         .      higher numbers of foster care kinship placements;”

         .	     more restrictive funding for mental health, juvenile justice, and social service
                programs than for Title IV-E foster care services;”

         .	     poor coordination between mental health, juvenile justice, and child welfare
                systems; andi

         .      inadequate or nonexistent standards guiding placement decisions?”

         Questions concerning these and other such factors are of increasing urgency to the
         entire child welfare system. That sense of urgency is most readily conveyed by the
         operating reality guiding placement choices in large metropolitan areas such as New
         York City and Los Angeles. In virtually every interview we conducted with
         caseworkers in those cities, the same scenario was described: Children become
         available for placement with little notice to the agency. Workers then begin searching
         for an available slot. Placement workers who have never met these children and who
         typically have only age, race, and gender information staff a phone bank to find bed
         assignments. Although there is no formal policy to that effect, nearly all adolescents
         are placed in group facilities. Others are placed in the first bed available. Many must
         be placed in emergency facilities and/or as “nomad children“ are subjected to a series
         of one-night placements.

         To help address the limitations of the foster care system on a national basis, it is vital
         that a national data collection system be established and that data be widely
         distributed and carefully analyzed. For the more than 300,000 children in the United
         States who are in foster care, we have no recent and reliable information on who they
         are or on the key factors affecting their well-being. In contrast, for example, for the


                                                     11
     150,000 to 160,000 people in the country who have end-stage renal disease, we can
.. 	 draw upon timely and highly credible data offering considerable details on their
     demographics, health status, and even treatment outcomes.

   Foster care children are no less important than those with kidney failure. To develop
   appropriate policies, we must as a start know more about them. For more than a
   decade, the Federal Government has been deliberating on how to develop a system
   that would provide such knowledge. It is time to act to establish a workable and
   useful foster care and adoption data collection system.

   Toward that end, we offer one recommendation to the Administration for Children
   and Families (ACF). It is intended to help the newly established data system be as
   helpful as possible to policymakers at different levels of government.

   7%eACF shod specify &Yplans for the prqmation and regula ckkbibution ofpdicy­
   relevant tables and for special analyses concemihg the data in the prvpmed fe care
   and adapt&m data coUection system It shoukl indicate thesepihs in thepmzmble to the
   regdatiom to be iwed concemihg the systm

   In the February 1990 notice of proposed rulemaking, ACF says little about what it will
   do with the data once it receives and checks them--only that it will “produce some
   standard descriptive reports that are routinely processed” and that the data will be
   “available to provide reports back to the States and to support special analyses.”
   This is inadequate for a system that is expected to cost more than $50 million in the
   first 3 years and to contribute to more effective policymaking.

   The ACF should specify the kind of tables it will prepare, indicating how it will
   present information on demographics, circumstances of removal, type of placement,
   and the like. It should also provide for frequent and widespread distribution and
   indicate the kind of special analyses of the data it will undertake. Such actions, we
   believe, are vital if the benefits associated with such a system are to outweigh the
   costs.




                                              12 

           COMMENTS              ON THE DRAFI’                REPORT


We received comments on the draft report from the Administration for Children and
Families (ACF) and the Assistant Secretary for Planning and Evaluation (ASPE). In
appendix D, we present their comments in full and our detailed response to them.

The ASPE comments, which were the most extensive, involved three major concerns.
The first of these was directed to our recommendation that ACF implement
immediately the most essential aspects of the foster care and adoption data collection
system. We made that recommendation because of our concerns about the many
complexities and costs associated with the comprehensive system envisioned by the
Department of Health and Human Services. The ASPE opposed any partial
implementation, as we suggested, because many of the duplicative and unnecessary
data elements initially proposed by the Department had been eliminated.

The ASPE’s second major concern involved our lack of recommendations addressing
larger foster care policy issues, such as those addressing alternative program models
and the Federal requirement that “reasonable efforts” must be made before removing
a child from a family. The third was that the report should state more strongly and
regularly that the numbers presented are estimates.

The brief ACF written comments supplement an earlier discussion we had with ACF
staff. In that discussion, the staff also raised some questions about the necessity and
practicality of the first recommendation. In its written comments, ACF indicated that
it would take our second recommendation “under advisement” and would respond “to
the extent possible.” That recommendation called for ACF to specify its plans for the
preparation of policy-relevant tables and for special analyses concerning data to be
obtained under the new system.

Our major response to these comments was to eliminate our first recommendation
calling for immediate implementation of essential aspects of the foster care adoption
and data collection system. We did that because of our understanding that ACF has
addressed some of our concerns about the complexity and constraints of the system
and has removed certain unnecessary and duplicative data elements proposed earlier.

We have not addressed larger policy issues because we believe the data obtained for
this study do not give us an adequate basis to address them. Further, we have not
added further emphasis to the limitations of our numbers because upon review, we
found those limitations adequately explained. We also note that even with the stated
limitations, the trend data presented in the report help provide a clearer picture of
recent developments concerning foster care children in the United States.




                                          13 

                            APPENDIX                   A
                                     ENDNOli??S


1. 	   We recognize that there are many other important questions that might be
       posed. Such questions might address other demographic characteristics as well
       as factors such as length of stay in foster care and circumstances of removal
       from home. We chose the four areas identified because they are particularly
       important and basic ones of much relevance to policymakers and because we
       expected that we could obtain reasonably complete information in these areas.

2. 	   There are four primary mechanisms for Federal financing of foster care
       services:

       0	    Title IV-B: This provision has been part of the Social Security Act since
             1935 and provides funding for a broad range of preventive and
             protective services to abused, neglected, and exploited children. It is a
             formula grant program that reimburses States 75 percent of qualifying
             foster care expenses up to an allotted total. Amended in 1980, Section
             427 earmarks a portion of total appropriations for States that:

                    . conduct an inventory of all children in foster care;
                    . implement a statewide tracking system for children in care;
                    . implement a review system with case review for each child
                       every 6 months and judicial review within 6 months of
                       initial placement; and
                    . implement a service plan to place each child in a permanent
                     home.

             The Department is required to conduct Section 427 reviews in each
             participating State to ensure that it meets these requirements. (Only
             three have opted out of 427 participation: Massachusetts, Wyoming, and
             Puerto Rico.)

       0     Title IV-E: (Described in text)

       0	    Title XX: Since 1974 this provision has been the major source of funds
             for a range of social services including child daycare, protective services,
             community services for people with disabilities, homemaker and chore
             services, and services for the elderly. Title XX was amended in 1981 to
             create a block grant for social services. Many States’ Title XX funds are
             expended for some foster care services.




                                         A -1 

       0	     Indenendent Living Program: Enacted in 1986, the ILP funds State
              services that assist AFDC-eligible children aged 16 and over to make the
              transition from foster care to successful independent living at age 18.
              No State matching funds are required. In 1988 the law was amended to
              include non-income-eligible children and to permit extension of services
              to youths for up to 6 months after they are emancipated from care.

       Of these four major Federal funding sources, three have experienced either
       modest growth or level funding in recent years. From 1985 to 1989,
       Title IV-B funding levels have increased from $200 million to $239 million.
       Annual increases in the Title XX Social Services Block Grant since 1974
       peaked in 1981 at $2.9 billion. Although P.L. 96-272 authorized annual $100
       million increases through 1985 to facilitate the goals of the statute, the SSBG
       was subsequently capped at $2.7 billion. The ILP has been reauthorized each
       year since its enactment and has been level funded at $45 million each year.

3. 	   See Committee on Finance, United States Senate, “Foster Care, Adoption
       Assistance, and Child Welfare Services,” Washington, D.C., September 1990, p.
       9.

4. 	   For a review of past and current foster care data collection efforts, see Federal
       Register 55, no. 288 (September 27, 1990): 39541-42.

5.     See Committee on Finance, pp. 32-33.

6. 	   In appendix C, we list the 38 States included in figure 1 and the States included
       in the subsequent figures.

7. 	   The 1987 case, known as the Eugene F. Case, required the State child welfare
       agency to provide relatives who are not parents the reimbursement and services
       provided to other foster parents. Prior to that case, children in custody of the
       State and placed with relatives were typically eligible only for AFDC payments
       and were not classified as foster children. The families are now referred to as
       kinship or approved relative home (ARH) placements. Children in relative
       placements increased from an average of 520 in 1985 to 15,500 in 1989. (Data
       compiled by the New York State Department of Social Services and presented
       in working papers for a conference held by the Department and the New York
       Community Trust on February 27, 1990 and entitled ‘The Changing Face of
       Foster Care in New York State.“)

8. 	   See Committee on Finance, pp. 32-33. The Committee presents data on
       children in foster care per 1,000 in the population dating back to 1962, when it
       reports that 3.9 children per 1,000 were in foster care.

9.     See “The Changing Face of Foster Care.”



                                          A -2 

10.     See ‘The Changing Face of Foster Care.”

11. 	   For the first nine months of 1989, the New York Department of Social Services
        reports that children under 1 year of age accounted for 8.0 percent of the
        group care caseload and those 5 years or younger accounted for 17.9 percent.
        The comparable numbers for 1988, as we reported, were 8.6 percent and 29.6
        percent. See ‘The Changing Face of Foster Care.”

12. 	   A study of the child welfare system in New York City, for instance, found that
        between 1985 and 1989, the number of children who were admitted to foster
        care because they lacked food, clothing, or shelter increased by 40 percent. See
        Report of the Manhattan Borough President’s Advisory Council on Child
        Welfare, Failed Promises: Child Welfare in New York Citv: A Look at the
        Past. Vision for the Future, July 1989, pp. 20, 25.

        For relevant recent studies by the Office of Inspector General, Office of
        Evaluation and Inspections, see Crack Babies, OEI-03-89-01540, June 1990;
        Boarder Babies, OEI-03-89-01541, June 1990; and Barriers to Freeing Children
        for Adontion, OEI-06-89-01640.

        Also relevant is a recent New England Journal of Medicine article. In it, the
        authors report on research that concludes that the use of illegal drugs is
        common among pregnant women regardless of race and socioeconomic status.
        They address a number of reasons why newborn children of poor and black
        women tend to be tested and reported to public health authorities more
        frequently. See I. J. Chasnoff, H.J. Landress, and M.E. Barrett, ‘The
        Prevalence of Illicit Drug or Alcohol Use During Pregnancy and Discrepancies
        in Mandatory Reporting in Pinellas County, Florida,” New EnPland Journal of
        Medicine 322, No. 17 (April 26, 1990): 1202-06.

13. 	   The increases in California and New York are substantial. In California, the
        average number of monthly child abuse reports rose from about 15,000 in 1983
        to about 39,000 in 1990. Similarly, in New York, the total number of reports
        filed in the State grew from 55,937 in 1980 to 122,498 in 1988.

14. 	   Kinship placements appear to be much more common for infants and
        preschoolers than for adolescents. In New York City, in 1986, about 10 percent
        of all infant admissions to foster care were placed with relatives. By 1988, that
        figure was about 33 percent. See ‘The Changing Face of Foster Care.”

15. 	   In the 1980’s, Federal funding for Title IV-B preventive and protective services
        has risen much more slowly than Title IV-E foster care services. Similarly, in
        the last half of the 1980’s Federal funding for mental health and juvenile justice
        systems has declined in constant dollars while that for the Titles IV-B and E
        funded child welfare system has increased, thereby encouraging the shifting of
        children from the former systems to the latter. See Select Committee on


                                           A -3
        Children, Youth, and Families, U.S. House of Representatives, “No Place to
        Call Home: Discarded Children in America,” Washington, D.C., 1990,
        pp. 65-77.

16. 	   The reality of the situation was recently reflected in a study which found that
        State child welfare representatives from 74 percent of the States regarded a
        lack of coordination between the three systems to be a major problem in
        delivering services to families and children in need. See S. Robison, Putting the
        Pieces Together: Survev of State Systems for Children in Crisis, National
        Conference of State Legislatures, Washington, D.C., July 1990, p. ix.

        Another study, focusing on the California child welfare system, underscored the
        depth of the problem. It concluded that “tenacious collaboration alone will not
        make up for societal underinvestment in children. . . . But without
        collaboration, more investment would not be much help. The system as a
        whole is so fundamentally flawed that huge amounts of dollars dumped in
        wouldn’t do much good.” See Sid Gardner, “Failure by Fragmentation,”
        California Tomorrow 4, no. 4 (Fall 1989): 20.

17. 	   In our survey, only three States--Idaho, Missouri, and Texas--reported that they
        have formally established standards of practice to guide foster care placement
        decisions. The Child Welfare League of America has had standards of this
        kind for years and is now engaged in an effort to reexamine them.




                                          A -4 

I   .


                                     APPENDIX                   B

                            STAItlXf7CAL    METHODOLOGYAND            NOZl!?S


        The data presented in our report emerge from our survey of State child welfare
        agencies. That survey encompassed each of the States and the District of Columbia
        (hereafter referred to as a State).

        Our survey consisted of two parts. The first involved a telephone interview with a
        senior State child welfare official in each State. In that interview we sought to obtain
        a clear understanding of the State’s policies, practices, and trends concerning foster
        care placements. (We conducted interviews with representatives of all 51 States.)

        The second part of the survey was conducted by mail. We sought data involving
        demographic characteristics, placement status, and admissions and discharges of
        children in foster care. We asked for such data for each quarter for every year from
        1985 through 1989.

        Our efforts to collect such data ran into the same constraints that have inhibited the
        development of a national foster care and adoption data collection system. From
        State to State, definitions of terms often varied, and the quarter-by-quarter data fields
        requested were often not available at all or only for certain periods.

        As a result, we had to make some decisions about which data fields were reliable and
        complete enough to use in developing and discussing our findings. We also had to
        determine how best to present the data in these fields.

        The data fields chosen concern the numbers of children in foster care, their ages
        broken down by the age categories used in the text, the numbers of children in group
        care and foster family care, and their ages.

        For every year, we asked for the data by quarter. If a State provided fourth quarter
        data for each of the 5 years surveyed, we used that quarter’s data for the year-to-year
        comparison. If it did not have fourth quarter data, we would use the third quarter; if
        it did not have the fourth or third, we would use the second; and, finally, if it did not
        have any of the last three quarters, we would use the first. In all cases,for each State,
        we would use the same quarter for the year-to-year comparison.

        In presenting the data, we chose to include, for each data field, only those States for
        which we had year-by-year data for each year from 1985 through 1989. Even though
        this meant that our universe of reporting States would always be less than the 51
        surveyed, and in a few instances substantially less, we determined that it was the most
        responsible, clear-cut, and consistent way to report the data. Thus, in our tables the


                                                  B-l
universe of reporting States ranges from a high of 38 to a low of 11. (In each case the
States included are presented in appendix C.)

This approach to presenting the data raises the question of whether the trends we
identify for the States included in our tables would also apply for the States not
included. Although we make no particular claim in this regard, it would appear that
the trends identified for our reporting States would also apply if all 51 States were
included in our data bases.

Beginning with the universe of 51 States, 1 (Arizona) failed to provide any caseload
information and 12 were unable to provide caseload information for all 5 years.
Additionally, of the 38 remaining States, 5 were unable to provide a breakdown of
caseload between group homes and foster family placements. Among the 5, the only
Top Eleven State was Florida.

We are confident that our findings are representative of the foster care caseload
because the 12 States we excluded due to incomplete data (1) had smaller caseloads
than any of the Top Eleven States, and (2) showed trends in their incomplete
information that paralleled those of our findings. In fact, for 1987 through 1989,
where we had complete information for 48 States, the percentage changes in caseload
from year-to-year were equivalent to that of the 38 included States. Similarly, the
excluded States in the group home versus foster family placement analysis exhibited
parallel trends to those included in our findings.

The wider applicability of the age-related findings is less certain since these are based
on only 15 States that provided complete age breakdown for the 5 years. Five
of the Top Eleven States are included in this analysis. Only 21 States provided any
age breakdown of their foster care caseload. The six States that were excluded
showed trends in their caseloads (higher proportions of preschoolers, smaller
proportions of older children) that were similar to those in the 15 States providing
complete data.




                                          B-2 

                             APPENDIX                     C


        TABLES DERIVED   FROM OIG SURK??Y OF CHD           WELJMRE    AGENCIES 



I.    FOSTER CARE PLACEMENTS
                                 1985            1986          1987     1988         1989
38 STATES                      228,155      233,427       244,584     266,045      304,431
CALIFORNIA & NEW YORK           68,755       73,004        79,964      92,886      118,661
TOP ELEVEN                     152,176      155,859       166,458     185,009      218,083
OTHER STATES (N=27)             75,979       77,568        78,126      81,036       86,348
A.    GROUP HOME PLACEMENTS
33 STATES                       44,226          44,579     44,561      48,527       51,189
CALIFORNIA &I NEW YORK          16,264          16,426     16,171      18,734       20,249
TOP ELEVEN (N=lO)               29,633          29,483     29,383      32,998       34,701
OTHER STATES (N=23)             14,593          15,096     15,178      15,529       16,488
B.    FOSTER FAMILY PLACEMENTS
33 STATES                       163,584         168,556    179,601     196,088      228,998
CALIFORNIA & NEW YORK            52,491          56,578     63,793      74,152       98,412
TOP ELEVEN (N=lO)               115,624         119,467    129,779     144,131      173,546
OTHER STATES (N=23)              47,960          49,089     49,822      51,957       55,452

II.    FOSTER CARE PLACEMENTS PER 1,000          CHILDREN AGE 18 AND UNDER
                                 1985            1986          1987     1988         1989
38 STATES                        3.85            3.92          4.09     4.43         5.04
CALIFORNIA 61 NEW YORK           5.74            6.02          6.49     7.41         9.32
TOP ELEVEN                       4.60            4.69          4.97     5.48         6.39
OTHER STATES (N=27)              2.90            2.95.         2.97     3.08         3.29
A.    GROUP HOME PLACEMENTS PER 1,000      CHILDREN AGE 18 AND UNDER
33 STATES                   0.84      0.84    0.84                      0.91     0.95
CALIFORNIA & NEW YORK       1.36      1.35    1.31                      1.50     1.59
TOP ELEVEN (N=lO)           0.98      0.97    0.96                      1.07     1.12
OTHER STATES (N=23)         0.65      0.67    0.67                      0.68     0.73
 B. FOSTER FAMILY PLACEMENTS PER 1,000 CHILDREN AGE 18                  AND UNDER
33 STATES                        3.09            3.18          3.37     3.66         4.26
CALIFORNIA &I NEW YORK           4.38            4.66          5.18     5.92         7.73
TOP ELEVEN (N=lO)                3.81            3.92          4.24     4.68         5.59
OTHER STATES (N=23)              2.13            2.17          2.20     2.29         2.45



                                          C-l
III.     FOSTER CARE PLACEMENT PER 1,000      CHILDREN AGE 18 AND UNDER, BY AGE
                                 1985         1986     1987     1988    1989
15 STATES
INFANTS < 1                     2.57          2.90    3.41     4.32     6.05
l-4 YEARS                       3.85          4.23    4.84     5.73     7.40
5-9 YEARS                       3.65          3.91    4.34     4.92     6.02
lo-14 YEARS                     4.44          4.65    4.91     5.34     6.07
15-18 YEARS                     6.42          6.43    6.32     6.54     7.00
CA AND NY
INFANTS < 1                     3.38          4.00    4.72     6.48     9.67
l-4 YEARS                       4.80          5.43    6.37     7.82    10.88
5-9 YEARS                       4.97          5.32    5.94     6.82     8.79
lo-14 YEARS                     5.77          6.07    6.55     7.40     8.85
15-18 YEARS                     8.13          7.90    7.70     8.02     8.58

A.     GROUP HOME PLACEMENT PER 1,000   CHILDREN AGES 18 AND UNDER, BY AGE
                                1985          1986     1987    1988     1989
11 STATES
INFANTS < 1                     0.09          0.11    0.08     0.14     0.22
l-4 YEARS                       0.09          0.11    0.09     0.14     0.20
5-9 YEARS                       0.25          0.27    0.27     0.30     0.36
lo-14 YEARS                     1.17          1.19    1.26     1.35     1.42
15-18 YEARS                     2.46          2.55    2.51     2.72     2.85

B.     FOSTER FAMILY PLACEMENT PER 1,000      CHILDREN AGES 18 AND UNDER, BY AGE
                                1985          1986    1987     1988     1989
11 STATES
INFANTS < 1                     2.47          2.94    3.62     4.13     5.21
l-4. YEARS                      3.86          4.30    5.06     5.80     6.83
5-9 YEARS                       3.55          3.90    4.39     4.88     5.54
lo-14 YEARS                     3.43          3.70    3.94     4.25     4.69
15-18 YEARS                     3.87          3.89    3.94     4.07     4.36




                                        c-2
IV.   STATES INCLUDED IN TABLES
 A.   38 STATES WITH COMPLETE DATA ON TOTAL PLACEMENTS 

      ALABAMA             MASSACHUSETTS 
        OKLAHOMA 

      ARKANSAS            MAINE 
                OREGON 

      CALIFORNIA          MICHIGAN 
             PENNSYLVANIA 

      COLORADO            MINNESOTA 
            SOUTH DAKOTA 

      CONNECTICUT         MISSOURI 
             TENNESSEE 

      FLORIDA             MISSISSIPPI 
          TEXAS 

      GEORGIA             NORTH DAKOTA 
         UTAH 

      HAWAII              NEBRASKA               VIRGINIA 

      ILLINOIS            NEW JERSEY             VERMONT 

      INDIANA             NEW MEXICO             WASHINGTON 

      KANSAS              NEVADA                 WISCONSIN 

      KENTUCKY            NEW YORK               WEST VIRGINIA 

      LOUISIANA           OHIO

 B.   THE TOP ELEVEN
      CALIFORNIA          NEW JERSEY
      FLORIDA             NEW YORK
      GEORGIA             OHIO
      ILLINOIS            PENNSYLVANIA
      MASSACHUSETTS       WASHINGTON
      MICHIGAN
 C.   33 STATES WITH COMPLETE DATA FOR GROUP HOME AND FOSTER
      FAMILY PLACEMENTS 

      ALABAMA 
           MAINE 
           SOUTH DAKOTA 

      ARKANSAS 
          MICHIGAN 
        TENNESSEE 

      CALIFORNIA 
        MISSOURI 
        TEXAS 

      COLORADO 
          MISSISSIPPI 
     UTAH 

      CONNECTICUT 
       NORTH DAKOTA 
    VIRGINIA 

      GEORGIA 
           NEW JERSEY 
      VERMONT 

      HAWAII 
            NEW MEXICO 
      WASHINGTON 

      ILLINOIS 
          NEVADA 
          WISCONSIN 

      INDIANA 
           NEW YORK 
        WEST VIRGINIA 

      KANSAS 
            OHIO 

      LOUISIANA 
         OREGON 

      MASSACHUSETTS 
     PENNSYLVANIA 

 D.   15 STATES WITH COMPLETE AGE DATA 
ON PLACEMENTS PER 1,000
      CHILDREN AGED 18 AND UNDER, BY AGE 

      CALIFORNIA          INDIANA           OHIO
      COLORADO            MISSOURI          OKLAHOMA
      FLORIDA             NEBRASKA          OREGON
      HAWAII              NEW MEXICO        VERMONT
      ILLINOIS            NEW YORK          WISCONSIN



                                    c-3
E.   11 STATES WITH COMPLETE AGE DATA FOR GROUP HOME AND FOSTER 

     FAMILY PLACEMENTS PER 1,000 CHILDREN AGED 18 AND UNDER, 

     BY AGE
     CALIFORNIA          NEW MEXICO
     COLORADO            OHIO
     HAWAII              OREGON
     ILLINOIS            VERMONT
     INDIANA             WISCONSIN
     MISSOURI




                                   c-4
                         APPENDIX             D
           DETAILED      COMMENl3  ON THE DRAPTREPORTAND
                      OIG RESPONSE TO THE COMMENTS


In this appendix,    we present    in full  the comments on the draft
report  offered   by the Administration     for Children    and Families
and the Assistant    Secretary   for Planning    and Evaluation.      In
each case, we also include      our brief   response to the comments.




                                   D-l
         L
  l *-           -t
.*




                                                                                   ADMINISTRATION      FOR CitlLDREN AND FAMILIES
                                                                                   Office of the Ak%tanP;Sedr~tfq,  suite 600
                      October 8, 1991                                              370 L’Enfant Promenp&,
                                                                                   Washington, D.C. 204Hm
                      TO: 	           Richard   P. Kusserow
                                      Inspector   General
                      FROM: 	         Jo Anne B. Barnhart
                                      Assistant   Secretary
                                        for Children     and Fa ilies
                                                             P
                                                                                                                     -
                      SUBJECT: 	 Comments on OIG Draft                Report:    "Trends         in Foster          Care,"
                                 OEI-01-90-00490

                      We have reviewed-the         draft      of the Office    of Inspector      General
                      report    entitled    "Trends in Foster Care."            We believe     that the
                      study provides      reliable       information     on current     trends   in foster
                      care.     It agrees with other information              available     to us which
                      indicates      that the use of foster          family   care and group care has
                      been increasing.         Members of my staff          have previously      provided
                      oral comments on the draft              in a meeting with the OIG.           At this
                      time, we have an additional               comment on one recommendation.
                      GIG Recommendation
                      The ACF should specify        its plans for the preparation        and regular
                      distribution    of policy-relevant       tables  and for special     analyses
                      concerning   the [foster      care and adoption]    data collection      system.
                      It should indicate      these plans in the preamble to the regulations
             .        to be issued concerning         the system.
                      &CF Comment                                                          .
                      The development       of a national       foster   care and adoption       data
                      system is currently         under way.       We anticipate    that it will
                      provide     the information      which is needed for improved policy            and
                      program planning.         Concerning      the description     and distribution
                      plan for policy-relevant          tables,     we will    take this recommendation
                      under advisement       and, to the extent        possible,    include    a
                      description     of them in the preamble.
                      Technical       Comment
                      On page 12,       para    4, the   word   "adaption"        should        be changed          to
                      ltadoption.tl
                      Thank you for the opportunity              to    comment     on   the       draft   report.            If
                      I may be of further assistance,                 please     do not        hesitate      to contact
                      me.




                                                                       D-2 

                       OIG RESPONSE TO ACF coMMEN?s


In accord with the oral comments of ACF staff, the comments of ASPE, and actions
recently take by ACF, we have eliminated the first recommendation presented in our
draft report. That recommendation called for ACF to implement immediately the
most essential aspects of the foster care and adoption data collection system.

We made that recommendation because of our concerns about the complexity and
scope of the system proposed by the Department of Health and Human Services in
the September 1990 proposed notice of rulemaking. As we indicated on page 12 of
the draft report, the proposed system involved “imposing constraints that could delay
and undermine the establishment of the comprehensive system set forth.” We
concluded at that point that the comprehensive system should remain as a goal, but
that ACF could best get the process started by identifying the most essential data
elements and requiring States at the outset to submit data only on them.

We retracted the recommendation because we understand that ACF already has
moved in the direction noted above, by removing duplicative and unnecessary data
elements and providing for more flexibility on various matters. We still urge ACF
sensitivity to the implementation difficulties many States will face, but because of the
changes it has made, concur with ACF and ASPE, which in its response says “we must
press ahead and finish the job we set out to do as quickly as possible.”




                                         D-3 

        DEPARTMENTOF HEAITH 8. HUMAN SERVICES                                 fifficegf     the Secretary

                                                                  ~--     -   -

                                                                              Warhintxon.       D.C.   20201


                                            SEP I3 1991

TO: 	            Richard P. Kusserow
                 Inspector General
FROM: 	          Assistant      Secretary    for
                 Planning      and Evaluation
SUBJECT: 	 Review            and Comment on OIG Draft Report:                 "Trends in
                 Foster      Care,"  OEI-3$-90-00490--CONDITIONAL                 CONCURRENCE

I concur with         the above report      sent for my review provided that
the comments         contained  in this memorandum are addressed.
Following are         three major concerns,      as well as a number of other
comments and         some suggested    editorial    changes.
Baior       Concerns:
First,    I appreciate    the Inspector  General's  efforts    to provide
new information       in an area that is especially    lacking   in quality,
reliable    data.     You summarize this point well in the following
statement:
         ‘IFor  the more than 300,000 children                  in foster   care,           we have
          no reliable        information        on who they are or on the                 key
          factors     affecting       their     well-being.       In contrast,            for
          example,     for the 150,000 to 160,000 people in the                           country
          who have end-stage            renal disease ,,we can draw upon                    timely
          and highly       credible       details     on their    demographics,            health
          status,     and even treatment             outcomes.t8
I strongly      concur with your recommendation               that ACF move quickly
to implement      the Adoption       and Foster Care Data Collection               System
 (AFCARS) to help fill         this void.      However, I also think           it is
important     to implement       the system in its entirety.             My office       has
been directly       involved     with ACF in the final           design of the
AFCARS. Based on the comments received                   in response     to the Notice
of Proposed Rulemaking            (NPRM), many duplicative           and unnecessary
data elements       have now been eliminated.              It is important       to
realize    that states       have repeatedly       informed      the Department      that
if we require       that they implement        a data collection         system,     it
should not be one that changes from year-to-year.                      Therefore,       I do
not agree with your recommendation               that the essential         AFCARS data
elements     be implemented        immediately     and that the system then be
expanded in subsequent          years.      Admittedly,      the AFCARS development
has been too slow, but we are at an end stage now where we must
press ahead and finish          the job we set out to do as quickly                 as
possible.




                                                   D-4 

.




    Page 2. --Richard        P. Kusserow
    Second, while I appreciate     the draft     report's   focus on the need
    to develop our data capabilities       in this area, I am concerned
    that this is the sole recommendation         to come from your analysis.
    In particular,   aside from providing       more accurate     information   on
    the subject,   I am perplexed    how the AFCARS will       really    inform us
    of ways to address the trends      specified     in the report:
      0    a general      increase      in the    foster     care   caseload;
      0	   a rapidly      growing proportion           of infants      and pre-schodlers            in
           the foster      care caseload;
     0	    an increase    in the number and proportion  of these                      infants
           and pre-schoolers    who are placed in group homes.
    Although      we may not know their          exact magnitude,        I think   that it
    is obvious that these trends              are taking    place.       I also think       that
    we cannot wait for more exact data to begin addressing                       these
    trends.       One strategy      we can pursue immediately            is to test
    alternative        program models on a demonstration             basis and evaluate
    their     effectiveness.        My office     is involved     with several       exciting
    projects      designed to develop the research             capabilities      of the
    child    welfare      services   area in preparation        for the evaluation            of
    demonstration         programs.
    Another area in which we could act now would be to embark on an
    effort     to provide         states   additional        guidance on placement
    practices.         Specifically,         I am referring         to the Veasonable
    efforts"      provision        of P.L. 96-272 which specifies                 that before
    children      are placed in foster             care, 18reasonable efforts"              must be
    made to avoid removing the child                    from the family.            This provision
    also mandates that once children                    are in foster        care, reasonable
    efforts      must be made to reunify              the child with his or her family
    thereby      avoiding       the termination         of parental       rights.       While
    safeguards        of this type are necessary,                there is much evidence
    that many agencies             are over-interpreting            these requirements         due
    to a number of reasons including:                      fear of adverse legal action,
    limited      availability         of caseworker        time and agency resources,
    bureaucratic        inertia,       poorly    coordinated        social     service    systems,
    and/or poorly          administered       practices.         Many of these problems
    were elaborated           in the recent OIG report              "Barriers       to Freeing
    Children      for Adoption.ll
    The results     of misinterpreting       reasonable     efforts  can be
    devastating     to a child.       For instance,     an abandoned infant     can
    sit for months or even years in a hospital               or group home before
    being placed in a foster          family   or adoptive     home, or a small
    foster    child   can age into adolescence        before becoming eligible
    for adoption.
    The Department   needs to define   reasonable     efforts    in its
    regulations
      \           to provide more   meaningful    guidance    to   states.                   This


                                                     D-5 

.




    Page 3. --Richard        P. Kusserow 

    issue has become more complicated               because of the large rise in 

    infant  placements     that took place in the late-1980's.                 Many of 

    the trends    found in your analysis            could be addressed      by providing 

    states  guidelines.       In-fact,      your report      briefly  alludes      to this 

    fact in the final      bullet      on page 11.       Therefore,   I suggest that 

    you consider     recommending       a process by which the Department              could 

    begin to .define meaningful          guidelines      for reasonable     efforts. 

    Third,    I feel it is important        that throughout     the report    a number 

    of caveats be included       stating      that the numbers presented       are 

    eaimates.       It is important      not to provide     readers   with a false 

    sense of security     that there is not a lack of reliable             data in 

    this area. 

    Qther   Comments: 

    On pages ii and seven, the draft           report    notes that the proportion

    of very young children        in the foster      care caseload      increased 

    while the proportion       of adolescents      decreased.       This statement 

    could be slightly      misleading     to the casual reader.           Our data from 

    New York, Illinois,       and California      show that the number of foster 

    care entrants     in both groups has increased,           although     infant   and 

    pre-school    entrants    have increased      much more than adolescent 

    entrants.     The report     should make the distinction           between 

    increases   in proportions       and absolute     numbers,.more clear. 

    At the top of page 2 the draft             report     states      that P.L. 96-272 

    sought to do two things.             I agree with the second goal

     (encouraging       case management and permanency planning)                 but I'm 

    uncomfortable        with the first.        It is unclear         to me what 

    "extensive1t       services    were made available         to children      at risk in 

    an effort       to reduce foster      care placement.           P.L. 96-272 did 

    specify     that each state implement            a foster     care prevention 

    program in order to receive            certain     federal      incentive    funds,    but 

    it did not specify          the parameters       of these programs or the 

    proportion        of children    that should be served in each state.                  P.L. 

    96-272 did change the state reimbursement                    mechanism for foster 

    children      from AFDC families       to an entitlement,            but it did not 

    make entitlement          money available      to states      for child     welfare 

    services. 

    The fourth       and fifth       paragraphs    on the same page refer       to press 

    accounts    of group homes which characterize              them as "large

    orphanage-type        facilities       where... children   are said to be 

     'warehoused'."         All of the press accounts that I have read talk 

    about the "newtt group home as being very different                   than the old 

    orphanages.         In fact,      many are characterized      as better     than many

    available      foster    family      homes.    While there is a widespread         fear 

    that group home placements               may be abused, I haven't       read any 

    press accounts        that report        such abuse is currently     taking     place. 





                                                   D-6 

I   .

        page 4. --Richard          P. Kusserow 

        On page four,    the second paragraph     notes that it is possible            that 

        in the mid-1980's    the foster     care population     was considerably

        less than it was in the late 1970's.          In fact,    the data you are
        referring   to (a sample survey conducted         in 1977) is highly
        suspect and not comparable      with later    caseload     counts.     In any
        case, the Senate Finance Committee publication            you list     as a
        footnote  .for this assertion     does not report     foster    care caseload
        data.from   1972 to 1979.     During this time period        the title      IV-E
        caseload  dropped slightly.       In sum, there is no evidence           that a
        large drop in the entire      caseload took place.
        On page nine,         I am concerned that one of your findings                 may be        a
        statistical       artifact      (the report       notes that from 1985 to 1989               the
        proportion       of foster      children     in group homes declined          slightly).
        In particular,         the proportion        of foster      care adolescents,        who     are
        over-represented           in group homes, has been falling              in relation         to
        other foster       care sub-populations.              I realize    that you make
        several     subsequent       observations       that support your initial
        finding,      but I believe        that each of these may be drawn from
        different      samples of states.            In summary, there is a lot going                  on
        here and,      in  the     absence    of  better     data, we have every reason              to
        believe     that the group home population                is increasing,      not
        decreasing.
        Suaaested      Editorial      Chanaes:
        In addition,        I suggest making       the    following    editorial      additions
        that appear       in bold type:
         a      (page L final   bullet,    and page five second bullet):                     "...a
               rise in caseload    admissions   in relation  to discharges                   has
               propelled  the growth."
         0     (page ii,   second bullet):      'I... the small proportion                of very
               young children     in the foster      care caseload increased               at an
               especially    sharp rate."
         0	    (page two, second paragraph,          last sentence):       "...it
               authorized    adoption   assistance      payments for 'special         needs'
               children,    children   who originate      from families      eligible     for
               AFDC who are physically        or emotionally     disabled,
               adolescents,      or members of a sibling       or ethnic     minority
               group.1t




    i




                                                         D-7 

.


    .


        Page 5. --Richard      P. Kusserow
         0	    (page 7, first  paragraph    of text):            "...two  actually     had
              small decreases.      In Massachusetts,            the placement     rate per
              1,000 children   declined   from 6.83            in 1985 to 6.59 in 1989;
              in New Jersey';  from 4.51 to 4.29."

        For more information       please    contact      Jane Baird    at   (202)   245-2409.




                                        Martin    H. G&y




                                                       D-8 

                      OIG RESPONSE TO ASPE COMMENTS


As we explain in our response to ACF’s comments, we concur with ASPE and have
dropped the recommendation calling for immediate implementation of the most
essential aspects of the foster care and adoption data collection system. We have also
made numerous other minor changes in response to ASPE’s other comments and
suggested editorial changes.

In regard to ASPE’s second major point concerning the absence of recommendations
in the report on the larger policy issues concerning foster care, our response is that
the underlying data generated by the study do not provide an adequate basis to make
those recommendations. We do not wish to imply, however, that policy decisions must
be delayed pending the implementation of the foster care and adoption data collection
system or that such a system in itself will provide the basis for determining the most
appropriate policies. We do expect, however, that such a system will be developed in
a manner that will be of as much policy relevance as possible.

Concerning ASPE’s second major point on presenting caveats that our numbers are
estimates, we have reviewed our explanation and use of the numbers and conclude
that they are presented in a clear manner that is not likely “to provide readers with a
false sense of security that there is not a lack of reliable data in this area.” Indeed, we
make that very point quite strongly.

Finally, ASPE suggeststhat our data indicating that the proportion of very young
children in the foster care caseload increased while the proportion of adolescents
decreased could be misleading to the casual reader. It suggested that we make the
differences between increases in proportions and absolute numbers clear. It cited
New York, Illinois, and California data showing that the absolute number of foster
care children in both groups increased, even though the infant and preschooler group
increased at a greater rate.

Yet, our data indicate that for 15 reporting States for the 1985 to 1989 period, the
absolute number of 15 to-18 year-olds in the foster care caseload rose only slightly,
from 40,982 to 42,489, while the number of infants and preschoolers rose significantly-­
from 28,835 to 60,616.




                                          D-9 

